      NATIONAL RAILROAD
      PASSENGER CORPORATION




Memorandum
To:           Gordon Hutchinson, Acting Chief Financial Officer

From:         David R. Warren
              Assistant Inspector General, Audits

Date:         March 27, 2013

Subject:      Amtrak Invoice Review: Internal Control Weaknesses Lead to Overpayments
              (Metro North) (Report No. OIG-A-2013-010)

The Amtrak Office of Inspector General (OIG) conducted this audit because of
previously identified control weaknesses and the significant amount of money
associated with Amtrak’s service costs and on-time performance (OTP) incentive
payments to host railroads. Over time, our office has identified more than $87 million in
overpayments and potential recoveries since 1995, not including the over-$1 million
identified in this report. The more than $87 million includes over $19 million in
overpayments that have already been collected. This report is part of a series of OIG
audits of Amtrak’s payments to host railroads. (See Appendix I for a list of prior
reports).

The objective of this audit was to determine whether Metro North Commuter Railroad
(Metro North) invoices to Amtrak for OTP incentives from January 2005 through
December 2010 were accurate. For a detailed discussion of our audit scope and
methodology, see Appendix I.

SUMMARY OF RESULTS
Metro North invoice amounts were not consistently accurate. The inaccuracies were
found in invoices that were not calculated in accordance with the operating agreements
between Amtrak and Metro North. The operating agreements serve as the basis for
determining incentive payments to host railroads. Our review of 6 Metro North
invoices from the 72-month period (January 2005 through December 2010) disclosed
invoice inaccuracies of almost 19 percent or more than $150,900 of the more than

  Certain information in this report has been redacted due to its sensitive nature.
